IN THE SUPREME COURT OF THE UNITED STATES

ZAVALA DE GOMEZ, REYNA MAGDALENA, ET AL.
Petitioner
vs.

No:

20-1469

MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 18, 2021
cc:
REYNA MAGDALENA ZAVALA DE
GOMEZ
C/O JOSEPH LACOME
4040 CIVIC CENTER DR.
STE. 200
SAN RAFAEL, CA 94903

